Department of Health and Human Services
             OFFICE OF
        INSPECTOR GENERAL




    NEW JERSEY MEDICAID
    FRAUD CONTROL UNIT:
     2013 ONSITE REVIEW




                        Stuart Wright
                  Deputy Inspector General for
                   Evaluation and Inspections

                       September 2013
                       OEI-02-13-00020
EXECUTIVE SUMMARY: NEW JERSEY MEDICAID FRAUD CONTROL UNIT:
2013 ONSITE REVIEW
OEI-02-13-00020

WHY WE DID THIS STUDY

The Office of Inspector General (OIG) oversees all Medicaid Fraud Control Units
(MFCU or Unit) with respect to Federal grant compliance. As part of this oversight,
OIG reviews all Units. These reviews assess Unit performance in accordance with the
12 MFCU performance standards and monitor Unit compliance with Federal grant
requirements, laws, and regulations.

HOW WE DID THIS STUDY

We based our review on an analysis of data from seven sources: (1) a review of policies,
procedures, and documentation related to the Unit’s operations, staffing, and caseload;
(2) a review of financial documentation; (3) structured interviews with key stakeholders;
(4) a survey of Unit staff; (5) structured interviews with the Unit’s management and staff;
(6) an onsite review of case files; and (7) an onsite review of Unit operations.

WHAT WE FOUND

From fiscal year (FY) 2010 through FY 2012, the Unit’s recoveries increased but felony
charges and convictions decreased. The Unit also investigated fewer cases of patient
abuse and neglect in FY 2012 than in FY 2010. Although most case files included
opening and closing documents, half lacked documentation of supervisory review.
Further, the Unit did not refer 94 percent of convictions to OIG appropriately. The Unit
also did not meet the requirements of its training plan in FY 2012. In addition, the Unit
Director does not supervise the majority of Unit staff and does not oversee part of the
Unit’s caseload. Lastly, the Unit identified as beneficial a case management tool that
tracks tasks and deadlines and includes descriptions of investigative and legal issues that
arise.

WHAT WE RECOMMEND

We recommend that the Unit: (1) take steps to ensure that its case mix includes more
cases of patient abuse and neglect; (2) ensure that case files contain supervisory reviews;
(3) appropriately refer individuals to OIG for program exclusion; (4) ensure that staff
receive at least the minimum training required in the Unit’s training plan; and (5) change
its supervisory structure to provide the Unit Director with supervision of all of the Unit’s
staff and oversight of all of its caseload. The Unit concurred with our first four
recommendations and described plans to implement each. In response to the fifth
recommendation, the Unit did not specifically state whether it concurred.
TABLE OF CONTENTS

Objectives ....................................................................................................1 

Background ..................................................................................................1 

Methodology ................................................................................................4 

Findings........................................................................................................7 

           From FY 2010 through FY 2012, Unit recoveries increased but 

           felony charges and convictions decreased .......................................7 

           The Unit investigated fewer cases of patient abuse and 

           neglect in FY 2012 than in FY 2010. ...............................................7 

           Although most case files included opening and closing 

           documents, half lacked documentation of supervisory review ........8 

           The Unit did not refer 94 percent of convictions to OIG 

           appropriately ....................................................................................9 

           The Unit did not meet the requirements of its training plan in 

           FY 2012............................................................................................9 

           The Unit Director does not supervise the majority of Unit staff

           and does not oversee part of the Unit’s caseload ...........................10 

           Other observation: Case management tool ...................................12 

Conclusion and Recommendations ............................................................13 

Unit Comments ..........................................................................................15 

Appendixes ................................................................................................17 

     A: Performance Standards for Medicaid Fraud Control Units .....17 

     B: Referrals of Patient Abuse and Neglect, Provider Fraud, and 

     Theft of Patient Funds to the Medicaid Fraud Control Unit by 

     Source, Fiscal Years 2010 through 2012 ........................................21 

     C: Cases Opened and Closed by Provider Category and Case 

     Type, Fiscal Years 2010 through 2012 ...........................................22 

     D: Organizational Chart ................................................................25 

     E: Confidence Intervals for Estimates ..........................................26 

     F: Unit Comments.........................................................................27 

Acknowledgments......................................................................................34 

                  OBJECTIVES
                  To conduct an onsite review of the New Jersey State Medicaid Fraud
                  Control Unit (MFCU or Unit).

                  BACKGROUND
                  The mission of State MFCUs, as established by Federal statute, is to
                  investigate fraud and patient abuse and neglect by Medicaid providers and
                  to prosecute it under State law.1 Pursuant to Title XIX of the SSA, each
                  State must maintain a certified Unit unless the Secretary of Health and
                  Human Services determines that operation of a Unit would not be
                  cost-effective because (1) minimal Medicaid fraud exists in that State and
                  (2) the State has other adequate safeguards to protect Medicaid
                  beneficiaries from abuse and neglect.2 Currently, 49 States and the
                  District of Columbia (States) have created such Units.3 In fiscal year
                  (FY) 2012, combined Federal and State grant expenditures for the Units
                  totaled $217.3 million, with Federal funds representing $162.9 million of
                  this amount.4 In FY 2012, the New Jersey Unit was awarded $5.8 million
                  in combined State and Federal funds.5
                  To carry out its duties and responsibilities in an effective and efficient
                  manner, each Unit must employ an interdisciplinary staff that consists of at
                  least an investigator, an auditor, and an attorney.6 Unit staff review
                  complaints provided by the State Medicaid agency and other sources and
                  determine their potential for criminal prosecution and/or civil action. In
                  FY 2012, the 50 Units collectively obtained 1,337 convictions and
                  823 civil settlements or judgments.7 That year, the Units reported
                  recoveries of approximately $2.9 billion.


                  1
                    Social Security Act (SSA) § 1903(q).

                  2
                    SSA §§ 1902(a)(61). Regulations at 42 CFR 1007.11(b)(1) add that the Unit’s 

                  responsibilities may include reviewing complaints of misappropriation of patients’ 

                  private funds in residential health care facilities. 

                  3
                    North Dakota and the territories of American Samoa, Guam, the Northern Mariana 

                  Islands, Puerto Rico, and the U.S. Virgin Islands have not established Units. 

                  4
                    OIG, State Medicaid Fraud Control Units Fiscal Year 2012 Grant Expenditures And 

                  Statistics, March 2013. Accessed at https://oig.hhs.gov/fraud/medicaid-fraud-control-
                  units-mfcu/expenditures_statistics/fy2012.asp on March 5, 2013. All FY references in

                  this report are based on the Federal FY (October 1 through September 30).

                  5
                    Office of Inspector General (OIG) analysis of Notice of Award for New Jersey for 

                  FY 2012. 

                  6
                    SSA § 1903(q)(6) and 42 CFR §1007.13. 

                  7
                    OIG, State Medicaid Fraud Control Units Fiscal Year 2012 Grant Expenditures And 

                  Statistics, March 2013. Accessed at https://oig.hhs.gov/fraud/medicaid-fraud-control-
                  units-mfcu/expenditures_statistics/fy2012.asp on March 5, 2013.

New Jersey State Medicaid Fraud Control Unit: 2013 Onsite Review (OEI-02-13-00020)                        1
                  Units are required to have either Statewide authority to prosecute cases or
                  formal procedures to refer suspected criminal violations to an agency with
                  such authority.8 In New Jersey and 43 other States, the Units are located
                  within offices of State Attorneys General; in the remaining six States, the
                  Units are located in other State agencies.9 Generally, Units outside of the
                  Attorneys General offices must refer cases to other offices with
                  prosecutorial authority.
                  Additionally, each Unit must be a single identifiable entity of State
                  government, distinct from the State Medicaid agency, and each Unit must
                  develop a formal agreement—i.e., a Memorandum of Understanding
                  (MOU)—that describes the Unit’s relationship with that agency.10
                  Oversight of the MFCU Program
                  The Secretary of Health and Human Services delegated to OIG the authority
                  to annually certify the Units and to administer grant awards to reimburse
                  States for a percentage of their costs in operating certified Units.11 All Units
                  are currently funded by the Federal Government on a 75-percent matching
                  basis, with the States contributing the remaining 25 percent.12 To receive
                  Federal reimbursement, each Unit must submit an initial application to
                  OIG.13 OIG reviews the application and notifies the Unit if the application is
                  approved and the Unit is certified. Approval and certification are for a
                  1-year period; the Unit must be recertified each year thereafter.14
                  Pursuant to Title XIX of the SSA, States must operate Units that effectively
                  carry out their statutory functions and meet program requirements.15 OIG
                  developed and issued 12 performance standards to define the criteria it
                  applies in assessing whether a Unit is effectively carrying out statutory




                  8
                    SSA § 1903(q)(1).

                  9
                    Among those States with a Unit, the Unit shares responsibility for protecting the 

                  integrity of the Medicaid program with the section of the State Medicaid agency that 

                  functions as the Program Integrity Unit. Some States also employ a Medicaid Inspector 

                  General who conducts and coordinates activities combating fraud, waste, and abuse for 

                  the State agency. 

                  10
                     SSA § 1903(q)(2); 42 CFR § 1007.9(d).

                  11
                     The portion of funds reimbursed to States by the Federal Government for its share of

                  expenditures for the Federal Medicaid program, including the MFCUs, is called Federal

                  Financial Participation.

                  12
                     SSA §1903(a)(6)(B). 

                  13
                     42 CFR § 1007.15(a). 

                  14
                     42 CFR § 1007.15(b) and (c). 

                  15
                     SSA § 1902(a)(61).


New Jersey State Medicaid Fraud Control Unit: 2013 Onsite Review (OEI-02-13-00020)                       2
                  functions and meeting program requirements.16 Examples include
                  maintaining an adequate caseload through referrals from several sources,
                  maintaining an annual training plan for all professional disciplines, and
                  establishing policy and procedure manuals to reflect the Unit’s operations.
                  See Appendix A for a complete list of the performance standards.17
                  New Jersey Unit
                  The Unit is located in the New Jersey Attorney General’s Office. The
                  MFCU Director reports to the Insurance Fraud Prosecutor, who reports
                  directly to the Attorney General. The Insurance Fraud Prosecutor,
                  appointed by the Governor, is also responsible for investigating and
                  prosecuting automobile and property fraud. The Unit has the authority to
                  prosecute Medicaid fraud and patient abuse and neglect cases and also
                  includes a False Claims Unit that is responsible for civil cases of health
                  care fraud.
                  As of January 2013, the Unit had 35 employees—22 located in the State
                  capital of Trenton, and 13 located in a satellite office in Whippany.18
                  Investigative teams are composed of Unit attorneys, with support from at
                  least two detectives assigned by the Unit Director. As needed, auditors
                  and/or support staff may also be assigned to the teams.
                  The Unit receives referrals of provider fraud from the State Medicaid
                  agency—the Division of Medical Assistance and Health Services
                  (DMAHS), in the Department of Human Services—and from the
                  Medicaid Fraud Division in the Office of the State Comptroller. The Unit
                  receives referrals of patient abuse and neglect from the State Ombudsman
                  for the Institutionalized Elderly (the State’s Long-Term Care
                  Ombudsman) and from the Division of Health Facilities Evaluation and
                  Licensing, the State survey and certification agency. From FY 2010
                  through FY 2012, the Unit received an average of 70 referrals of fraud
                  each year, and an average of 63 referrals of patient abuse and neglect each
                  year. (See Appendix B for a breakdown of referrals by type, year, and
                  source.)




                  16
                     59 Fed. Reg. 49080 (Sept. 26, 1994). Accessed at http://oig.hhs.gov on
                  November 5, 2012. OIG published a revision of the performance standards, 77 Fed. Reg.
                  32645 (June 1, 2012). This review applies the previous standards (published on
                  September 26, 1994) for the review period of FY 2010 through May 31, 2012, and the
                  standards published on June 1, 2012, when assessing Unit operations after May 31, 2012.
                  17
                     Appendix A contains the performance standards dated September 26, 1994. For the
                  June 1, 2012, performance standards, see
                  https://oig.hhs.gov/authorities/docs/2012/PerformanceStandardsFinal060112.pdf.
                  18
                     The Unit Director has an office in both locations.

New Jersey State Medicaid Fraud Control Unit: 2013 Onsite Review (OEI-02-13-00020)                      3
                  When the Unit receives a referral, it determines whether the referral has
                  the potential for criminal or civil prosecution. For referrals that are civil in
                  nature, the Unit assigns them to the False Claims Unit.19 See Appendix C
                  for additional information on the Unit’s opened and closed cases,
                  including a breakdown by case type and provider category.
                  The Unit may open a case and pursue it through a variety of actions,
                  including criminal prosecution or civil action. The Unit may close a case
                  through a criminal or civil resolution or through a referral to another
                  agency, or for other reasons.
                  The Unit participated in several “global”—i.e., multi-State—civil cases,
                  coordinated by the National Association of Medicaid Fraud Control Units
                  (NAMFCU), during the review period. One of the Unit’s attorneys serves
                  as an “intake attorney” on these cases.

                  METHODOLOGY
                  Our review covered the 3-year period of FYs 2010 through 2012. We
                  analyzed data from seven sources: (1) a review of policies, procedures,
                  and documentation relating to the Unit’s operations, staffing, and caseload
                  for FYs 2010 through 2012; (2) a review of financial documentation for
                  FYs 2010 through 2012; (3) structured interviews with key stakeholders;
                  (4) a survey of Unit staff; (5) structured interviews with the Unit’s
                  management and staff; (6) an onsite review of case files that were open in
                  FYs 2010 through 2012; and (7) an onsite review of Unit operations
                  conducted in January 2013.
                  We analyzed data from all seven sources to describe the caseload and
                  assess the performance of the Unit. We also analyzed the data to identify
                  any opportunities for improvement and any instances in which the Unit
                  did not meet the performance standards or was not operating in
                  accordance with laws, regulations, and policy transmittals.20 In addition,
                  we described noteworthy practices that appeared to benefit the Unit, based
                  on statements from Unit staff, data analysis, and our own judgment. We
                  did not independently verify the effectiveness of these practices, but

                  19
                     The Unit may also open cases that were not referred by another agency. For example,
                  a case may be initiated from work on a related case. The Unit may also join a False
                  Claims Act case initiated by the National Association of Medicaid Fraud Control Units
                  (NAMFCU). NAMFCU is a voluntary association of all 50 Units that provides training
                  opportunities and facilitates the settlement of “global” (multi-State) civil False Claims
                  Act cases involving the U.S. Department of Justice and other State MFCUs. More
                  information on NAMFCU and its involvement in global cases is available online at
                  http://www.namfcu.net.
                  20
                     All relevant regulations, statutes, and policy transmittals are available online at
                  http://oig.hhs.gov.

New Jersey State Medicaid Fraud Control Unit: 2013 Onsite Review (OEI-02-13-00020)                            4
                  included the information because it may be useful to other Units in their
                  operations.
                  Data Collection and Analysis
                  Review of Unit Documentation. We requested and reviewed documentation,
                  policies, and procedures related to the Unit’s operations, staffing, and cases,
                  including its annual reports, quarterly statistical reports, and responses to
                  recertification questionnaires. We also requested and reviewed the Unit’s
                  data describing its caseload, prosecutions, and recoveries. Data collected
                  included information such as the number of referrals received by the Unit
                  and the number of investigations opened and closed.
                  Review of Financial Documentation. To evaluate internal controls, we
                  reviewed policies and procedures related to budgeting, accounting systems,
                  cash management, procurement, property, and personnel. We obtained from
                  the Unit its claimed grant expenditures for FYs 2010 through 2012 so that
                  we could: (1) review final Federal Status Reports21 and supporting
                  documentation, (2) select and review transactions within categories of direct
                  costs to determine whether costs were allowable, and (3) verify that indirect
                  costs were accurately computed using the approved indirect cost rate. We
                  also reviewed records in the HHS Payment Management System (PMS)22
                  and revenue accounts to identify any unreported program income.23
                  Interviews With Key Stakeholders. We conducted structured interviews
                  with nine individual stakeholders who were familiar with Unit operations.
                  Specifically, we interviewed the two individuals who served as Unit
                  directors during our review period. We also interviewed the Acting
                  Insurance Fraud Prosecutor; the Director of the Medicaid Fraud Division
                  within the Office of the State Comptroller; the Ombudsman for the
                  Institutionalized Elderly; the Deputy Chief of Detectives for the Division
                  of Criminal Justice; the Assistant Division Director for the Division of
                  Medical Assistance and Health Services in the Department of Human
                  Services; the Assistant Commissioner for the Division of Health Facilities
                  Evaluation and Licensing in the New Jersey State Department of Health;
                  and the Assistant Special Agent in Charge for OIG’s Region II. These
                  interviews focused on the Unit’s interaction with external agencies, Unit


                  21
                     The Unit transmits financial status reports to OIG’s Office of Management and Policy
                  on a quarterly and annual basis. These reports detail Unit income and expenditures.
                  22
                     The PMS is a grant payment system operated and maintained by the HHS Program
                  Support Center, Division of Payment Management. The PMS provides disbursement,
                  grant monitoring, reporting, and cash management services to awarding agencies and
                  grant recipients, such as the Units.
                  23
                     Program income is defined as “gross income received by the grantee or subgrantee
                  directly generated by a grant supported activity, or earned only as a result of the grant
                  agreement during the grant period.” 45 CFR § 92.25(b).

New Jersey State Medicaid Fraud Control Unit: 2013 Onsite Review (OEI-02-13-00020)                            5
                  operations, opportunities for improvement, and any practices that appeared
                  to benefit the Unit and that may be useful to other Units in their
                  operations.
                  Survey of Unit Staff. We conducted an electronic survey of all
                  nonmanagerial Unit staff. We requested and received responses from each
                  of the 29 nonmanagerial staff members, for a 100-percent response rate.
                  Our questions focused on operations of the Unit, opportunities for
                  improvement, and practices that appeared to benefit the Unit and that may be
                  useful to other Units in their operations. The survey also sought information
                  about the Unit’s compliance with applicable laws, regulations, and policy
                  transmittals.
                  Interviews with Unit Management and Staff. We conducted structured
                  interviews with the Unit’s Director (also the Chief Attorney for criminal
                  cases), the assistant section chief, the Chief Attorney for False Claims Act
                  cases, and the senior investigator. We asked these managers to provide us
                  with additional information to better understand the Unit’s operations,
                  identify opportunities for improvement, identify practices that appeared to
                  benefit the Unit and that may be useful to other Units, and clarify
                  information obtained from other data sources. We also interviewed the
                  Unit’s two auditors, two attorneys from the False Claims Unit, and the nurse
                  investigator. We asked similar questions of these staff.
                  Onsite Review of Case Files. We selected a simple random sample of
                  100 case files from the 1,004 cases that were open at any point from
                  FY 2010 through FY 2012. The design of this sample allowed us to
                  estimate the proportion of all 1,004 case files with certain characteristics at
                  the 95-percent confidence level. We reviewed these 100 sampled case
                  files and the Unit’s processes for monitoring the status and outcomes of
                  cases. From these 100 case files, we selected another simple random
                  sample of 50 cases for a more in-depth review.
                  Onsite Review of Unit Operations. While onsite, we reviewed the Unit’s
                  operations. Specifically, we reviewed the Unit’s process for intake of
                  referrals, security of data and case files, and the general functioning of the
                  Unit.
                  Standards
                  This study was conducted in accordance with the Quality Standards for
                  Inspection and Evaluation issued by the Council of the Inspectors General
                  on Integrity and Efficiency.




New Jersey State Medicaid Fraud Control Unit: 2013 Onsite Review (OEI-02-13-00020)             6
                  FINDINGS
                  From FY 2010 through FY 2012, Unit recoveries
                  increased but felony charges and convictions
                  decreased
                  The Unit experienced an 80 percent increase in recoveries from FY 2010
                  through FY 2012. Global civil false claims cases accounted for much of
                  the increase in recoveries. In total, the Unit reported recoveries of
                  $144 million in 3 years—an average of $48 million annually (see Table 1).
                  Table 1: New Jersey MFCU Recoveries, FYs 2010 through 2012
                                                                                                        Annual
                                           FY 2010          FY 2011      FY 2012            Total      Average
                    Reported
                    Criminal
                    Recoveries            $241,220         $692,552     $255,690       $1,189,462     $396,487
                    Reported Civil
                    Recoveries –
                    State Only                   $0              $0       $2,266           $2,266         $755
                    Reported Civil
                    Recoveries –
                    Global             $43,781,406      $20,423,360   $78,637,924    $142,842,690   $47,614,230

                    Total Reported
                    Recoveries
                                       $44,022,626      $21,115,912   $78,895,880    $144,034,418   $48,011,473
                    Source:  OIG analysis of Unit data, 2013. 

                  At the same time, the Unit’s criminal prosecutions saw a marked decrease.
                  Specifically, the number of convictions decreased from 54 to 13, while the
                  number of individuals or corporations charged with a felony decreased
                  from 60 to 18. The Unit Director explained that the decrease resulted
                  from the Unit making a shift towards more complex, high-profile cases,
                  which take longer to prosecute. She further stated that this strategy will
                  yield more defendants charged per case.

                  The Unit investigated fewer cases of patient abuse and
                  neglect in FY 2012 than in FY 2010
                  According to Performance Standard 4, the Unit should take steps to ensure
                  that it “maintains an adequate workload through referrals” from the State
                  Medicaid agency and other sources. The Unit should also ensure that it
                  receives adequate referrals of patient abuse complaints from all sources.
                  From FY 2010 through FY 2012, the Unit’s number of cases of patient
                  abuse and neglect decreased 70 percent, from 108 to 32.
                  We identified two actions by the MFCU that may explain this decrease in
                  abuse and neglect cases. In 2010, the Unit dismantled its Patient Protection
                  Unit, which focused solely on patient abuse and neglect cases. A number
                  of staff noted that the Patient Protection Unit was helpful in maintaining a

New Jersey State Medicaid Fraud Control Unit: 2013 Onsite Review (OEI-02-13-00020)                           7
                  unique focus on these issues and that its staff “were highly specialized.”
                  The Patient Protection Unit also worked closely with a number of
                  potential referral sources, including the State Department of Health, the
                  Office of the Ombudsman for the Institutionalized Elderly, and the State
                  Medicaid Agency. The Unit Director explained that she did not believe
                  that a specialized unit was necessary because all Unit attorneys should be
                  capable of handling these cases. 
                  In 2012, the Unit developed a new policy for accepting referrals of patient
                  abuse and neglect. The Unit previously accepted the majority of such
                  referrals and investigated them to determine the feasibility of each case. In
                  contrast, the Unit now only accepts referrals where the abuse or neglect was
                  witnessed by someone other than the patient and was documented in the
                  medical record. Also, for cases involving theft of patient funds (a type of
                  abuse or neglect), the Unit now generally accepts only referrals where the
                  financial loss is $100,000 or more and the accused is not a family member.
                  The Unit director explained that these thresholds were carefully considered
                  and that they were intended to ensure that the cases undertaken by the Unit
                  would likely lead to a successful prosecution. She noted that referral
                  sources are being more selective in what they send to the Unit now.
                  Stakeholders who refer cases of patient abuse and neglect to the Unit
                  confirmed that they now send fewer referrals to the Unit as a result of the
                  policy and send more cases to county prosecutors instead.

                  Although most case files included opening and
                  closing documents, half lacked documentation of
                  supervisory review
                  According to Performance Standard 6, the Unit should complete cases
                  within a reasonable timeframe. As a part of this standard, supervisors
                  should approve the opening and closing of cases and supervisory reviews
                  should be “conducted periodically and noted in the case file” to ensure
                  timely case completion. In our review, we found that almost all case files
                  contained opening and closing documents. Specifically, 91 percent of
                  case files had an opening memorandum and 97 percent had a closing
                  memorandum. See Appendix E for confidence intervals. However,
                  50 percent of Unit case files lacked documentation of at least one
                  supervisory review.24




                  24
                    The point estimate is 50 percent with a 95-percent confidence interval of 37 to
                  63 percent. This analysis did not include global cases or cases that the Unit opened and
                  closed on the same day.

New Jersey State Medicaid Fraud Control Unit: 2013 Onsite Review (OEI-02-13-00020)                           8
                  The Unit did not refer 94 percent of convictions to OIG
                  appropriately
                  According to Performance Standard 8(d), the Unit must send reports of
                  convictions to OIG “within 30 days or other reasonable time period” for the
                  purpose of excluding providers and nonproviders from participation in
                  Federally-funded healthcare programs, including Medicare and Medicaid.25
                  From FY 2010 through FY 2012, 50 individuals were sentenced for
                  healthcare fraud, patient abuse, neglect, or financial exploitation. The Unit
                  did not refer 47 of these individuals (94 percent) to OIG appropriately. It
                  never referred 6 individuals to OIG, and it referred 41 individuals after the
                  30-day timeframe. The Unit referred the remaining 3 individuals within the
                  30-day timeframe. It took an average of 103 days to send notice to OIG
                  after the individual was sentenced; in one case, the Unit sent notice
                  260 days after sentencing. If a Unit fails to properly refer convicted
                  providers for exclusion, the providers may be able to continue to submit
                  fraudulent claims and receive payments from Federally-funded healthcare
                  programs.

                  The Unit did not meet the requirements of its training
                  plan in FY 2012
                  According to Performance Standard 12, the Unit must maintain an annual
                  training plan for all professional disciplines. In addition, Performance
                  Standard 12b states that the Unit must have a minimum number of
                  required training hours for each professional discipline, and staff must
                  comply with the requirement. The training plan for the New Jersey Unit
                  states that each professional discipline in the Unit shall participate in
                  3 hours of Medicaid fraud training and 3 hours of False Claims Act
                  training sponsored by the Unit. Additionally, each employee must attend
                  two Medicaid Fraud trainings offered by NAMFCU, subject to available
                  funding and supervisory approval.




                  25
                    Under 42 U.S.C. § 1320a-7(a), OIG is required to exclude from participation in Federal
                  health care programs any person or entity convicted of a criminal offense related to the
                  delivery of an item or service under the Medicaid program or to the neglect or abuse of
                  patients in residential health care facilities. See also 42 CFR § 1001.1901. For
                  individuals and entities convicted of program-related crimes, patient abuse, felony
                  healthcare fraud, and felonies relating to controlled substances, a mandatory exclusion is
                  required. See SSA § 1128(a).

New Jersey State Medicaid Fraud Control Unit: 2013 Onsite Review (OEI-02-13-00020)                        9
                  Not all staff met the training requirements.26 The Unit training logs
                  indicate that of the 33 Unit staff in a professional discipline that were
                  working in the Unit in FY 2012, 23 met the Medicaid fraud training
                  requirement in FY 2012.27 The remaining 10, which included attorneys
                  and detectives, received no Medicaid fraud training. In addition, none of
                  the staff met the False Claims Act training requirement in FY 2012. The
                  training logs also showed that both types of training were rarely offered in
                  the prior 2 fiscal years. Staff also rarely met the requirement for
                  NAMFCU training; only seven staff members attended NAMFCU training
                  in the 3 fiscal years under review.
                  More than half of the non-managerial staff reported that they needed more
                  training, with the majority of those staff members specifically citing
                  concerns about not receiving an adequate amount of Medicaid fraud
                  training.

                  The Unit Director does not supervise the majority of
                  Unit staff and does not oversee part of the Unit’s
                  caseload
                  Social Security Act § 1903(q)(6) requires Units to “employ […] such
                  auditors, attorneys, investigators, and other necessary personnel and [be]
                  organized in such a manner as is necessary to promote the effective and
                  efficient conduct of the entity’s activities.”  We found that although the
                  Unit has a Unit Director, 20 of 34 staff do not report to her, and she does
                  not oversee any of the Unit’s civil cases. The Director has supervisory
                  responsibility only for the 14 attorneys and auditors working on criminal
                  cases. The 5 attorneys and auditors working on civil cases, as well as all
                  of the Unit’s 15 detectives, do not report to the Director.




                  26
                     Although we reviewed training records, we did not evaluate the staff’s professional
                  qualifications. Rather, we applied the performance standards to evaluate whether the
                  Unit maintained a formal training plan for each professional discipline and whether staff
                  met the training plan requirements. We recognize that attorneys, investigators, and
                  auditors receive professional and law enforcement training, and that not meeting the
                  training plan requirements does not suggest that professional staff are unqualified.
                  27
                     The Unit’s training plan considers technical analysts and support staff to have their
                  own professional disciplines and provides training for all disciplines accordingly. In
                  contrast, OIG normally limits its recognition of professional disciplines in the MFCUs to
                  attorneys, detectives, and auditors. Our review of the New Jersey Unit used the
                  definition provided by the Unit.

New Jersey State Medicaid Fraud Control Unit: 2013 Onsite Review (OEI-02-13-00020)                       10
                  The Unit Director does not supervise the staff or oversee the
                  caseload of the False Claims Unit
                  Although the False Claims Unit is part of the MFCU, the False Claims
                  Unit staff do not report to the Unit Director. Rather, as reflected on the
                  Unit’s organizational chart (see Appendix D), the head of the False Claims
                  Unit—i.e., the lead attorney in the False Claims Unit—reports directly to
                  the Insurance Fraud Prosecutor.
                  The Unit Director does not supervise the staff or oversee the caseload of
                  the False Claims Unit. Instead, the lead attorney in the False Claims Unit
                  supervises the False Claims Unit and reports directly to the Insurance
                  Fraud Prosecutor. The lead attorney manages the day-to-day operations of
                  the False Claims Unit, which includes approving the opening and closing
                  of all Medicaid False Claims Act cases and managing all of the decisions
                  about how cases are to be prosecuted. The Unit Director is copied on
                  False Claims Unit emails, but is otherwise not involved in the prosecution.
                  During biweekly meetings with the Insurance Fraud Prosecutor, the Unit
                  Director reports on her top criminal cases, while the lead attorney of the
                  False Claims Unit reports on his top civil cases. Additionally, the Unit
                  Director also does not conduct the performance reviews of staff in the
                  False Claims Unit; the lead attorney is responsible for conducting these
                  reviews.
                  The Unit Director does not supervise the Unit’s detectives
                  All of the Unit’s 15 detectives report to a lieutenant in the Unit who is
                  responsible for approving and addressing any issues with their time,
                  attendance, leave, resource needs, and performance. This lieutenant does
                  not report to the Unit Director, but instead reports to the Deputy Chief of
                  Detectives, who is outside of the Unit. The Deputy Chief of Detectives is
                  the second-level supervisor for the MFCU detectives as well as for the
                  detectives who investigate private insurance fraud in the Office of the
                  Insurance Fraud Prosecutor. The Deputy Chief of Detectives reports to
                  the Chief of Detectives, who reports to the Insurance Fraud Prosecutor.
                  The Unit Director acknowledged that she currently provides only informal
                  feedback to the detectives, including the lieutenant, and does not conduct
                  their performance evaluations. She noted that this may change in the
                  future, as the Unit is currently testing a procedure that would allow her to
                  have formal input on the evaluations of the Unit’s detectives.28 As the
                  Unit Director noted, “We want control over the evaluations of the
                  sergeants and detectives. I think we should have a say in commenting on

                  28
                     The lead attorney in the False Claims Unit is also participating in this pilot program.
                  He will provide written input on the one detective in his Unit.

New Jersey State Medicaid Fraud Control Unit: 2013 Onsite Review (OEI-02-13-00020)                             11
                  and preparing their evaluations.” Under this pilot program, the Unit
                  Director may provide written comments on draft evaluations of the
                  detectives; these comments are then included in the final versions that are
                  submitted to the Insurance Fraud Prosecutor. The State Attorney General
                  will determine whether to implement this process on a permanent basis.
                  Although the Unit Director noted that she works collaboratively with the
                  detectives, one former director noted that the current management
                  structure can create tension and potential problems when the Unit Director
                  differs with the detectives on how a case should proceed. He observed
                  that when he was director, there were times when the lieutenants in the
                  Unit set different priorities than his and that this difference hurt the
                  performance of the Unit, as cases took longer to progress.

                  Other observation: Case management tool
                  The Unit identified a case management tool that benefited the Unit—a
                  joint investigation plan that continually monitors progress of its
                  investigations.
                  Joint Investigation Plan. The Unit developed a supervisory review
                  document called a Joint Investigation Plan that includes tasks and
                  deadlines, as well as descriptions of significant investigative and legal
                  issues. An investigative plan is a standard tool used in complex
                  investigations. The Unit’s plan contains an additional feature—a “punch
                  list” of steps that the investigative team will need to undertake. Every
                  30 days, the plan is updated and initialed by the assigned attorney and
                  investigator, as well as the Unit lieutenant who oversees all investigations.
                  The plan is then reviewed during monthly supervisory case reviews until
                  the case is completed. The Unit started using the Joint Investigation Plan
                  beginning in November 2011, primarily for new cases.




New Jersey State Medicaid Fraud Control Unit: 2013 Onsite Review (OEI-02-13-00020)           12
                  CONCLUSION AND RECOMMENDATIONS
                  From FY 2010 through FY 2012, Unit recoveries increased but felony
                  charges and convictions decreased. The Unit also investigated fewer cases
                  of patient abuse and neglect in FY 2012 than in FY 2010. Additionally,
                  although most case files included opening and closing documents, half
                  lacked documentation of supervisory review. Further, the Unit did not
                  refer 94 percent of convictions to OIG appropriately. The Unit also did
                  not meet the requirements of its training plan in FY 2012. In addition, the
                  Unit Director does not supervise the majority of Unit staff and does not
                  oversee part of the Unit’s caseload.
                  Our financial review found no significant instances where the Unit failed
                  to maintain proper fiscal control of its resources. In addition, the Unit
                  identified as beneficial a case management tool that includes tasks and
                  deadlines, as well as descriptions of significant investigative and legal
                  issues.
                  We recommend that the New Jersey Unit:
                  Take Steps to Ensure That the Unit’s Case Mix Includes More
                  Cases of Patient Abuse and Neglect
                  The Unit should conduct outreach to potential sources of referrals, and
                  work with existing sources to determine whether the Unit is receiving the
                  appropriate referrals. Additionally, the Unit should consider revising its
                  referral policy since it may not be receiving all appropriate patient abuse
                  and neglect referrals because of this policy.
                  Ensure That Case Files Contain Supervisory Reviews
                  The Unit should include documentation in its case files to demonstrate that
                  supervisors conducted periodic reviews, as required by the performance
                  standards. Use of the Joint Investigation Plan should help the Unit ensure
                  that it has the appropriate documentation.
                  Appropriately Refer Individuals to OIG for Program Exclusion
                  The Unit should refer convictions to OIG for purposes of program exclusion
                  within 30 days of their sentencing, in accordance with Performance
                  Standard 8(d) of the revised performance standards.
                  Ensure That Staff Receive at Least the Minimum Training
                  Required in the Unit’s Training Plan
                  The Unit should ensure that staff are complying with the training
                  requirements in the Unit’s training plan. Staff should receive the required
                  3 hours of Medicaid training and 3 hours of False Claims Act training.




New Jersey State Medicaid Fraud Control Unit: 2013 Onsite Review (OEI-02-13-00020)              13
                  Change Its Supervisory Structure To Provide the Unit Director
                  With Supervision of All Unit Staff and Oversight of All Its
                  Caseload
                  To ensure that the Unit is organized in such a manner to promote effective
                  and efficient conduct of the Unit’s activities, the Unit should reorganize its
                  supervisory structure. Specifically, the Unit Director should be made the
                  person primarily responsible for the hiring and termination, discipline,
                  day-to-day case activities, and performance evaluations of all Unit staff,
                  including all the detectives and False Claims Unit staff. The Unit Director
                  could exercise this authority either as an immediate supervisor or through
                  complete supervision of the existing first-line supervisors.




New Jersey State Medicaid Fraud Control Unit: 2013 Onsite Review (OEI-02-13-00020)           14
                  UNIT COMMENTS
                  The New Jersey Acting Attorney General, on behalf of the New Jersey
                  Unit, concurred with the first four recommendations and described plans
                  to implement each. In response to the fifth recommendation, the Unit did
                  not specifically state whether it concurred.
                  The Unit concurred with our recommendation to take steps to ensure that
                  its case mix includes more cases of patient abuse and neglect. The Unit
                  stated that in June 2013 it implemented a revised policy for referral
                  standards that it believes will result both in more appropriate cases being
                  referred to the Unit and a better case mix.
                  The Unit also concurred with our recommendation to ensure that case files
                  contain supervisory reviews. The Unit noted that it had recently updated
                  the Joint Investigation Plan to include signature lines for the Unit Director
                  and Assistant Section Chief, and that the Unit Director had instructed all
                  Deputy Attorneys General that it must be used and brought to each
                  monthly case review.
                  The Unit concurred with our recommendation to appropriately refer
                  individuals to OIG for program exclusion. The Unit stated that it has
                  taken steps to remedy the lag time and started sending notifications of
                  court action to the regional OIG office at the time a defendant is sentenced
                  or when the defendant has been accepted into a deferred sentence
                  program. To ensure that this practice is uniformly followed, the Unit
                  Director issued a written reminder to all Unit attorneys to submit timely
                  notification to OIG of convictions.
                  The Unit concurred with our recommendation to ensure that staff receive
                  at least the minimum training required in the Unit’s training plan. The
                  Unit described plans to offer in-house training on Medicaid fraud and
                  training on the False Claims Act, and to require this training of all new
                  hires as well as staff who have not completed this training in the past. The
                  Unit also noted that it intends to send staff to NAMFCU training and to
                  budget for future out-of-State training.
                  The Unit did not specifically state whether it concurred with our
                  recommendation to change its supervisory structure to provide the Unit
                  Director with supervision of all Unit staff and oversight of all of the Unit’s
                  caseload. The Unit stated that it believes that the supervision of the
                  personnel within the Unit continues to be effective and that the current
                  structure was put in place in order to respond to certain law enforcement
                  issues. The Unit indicated that changing its structure will have a
                  substantial impact upon how the Unit and other law enforcement areas
                  operate within the State Attorney General’s Office. It further noted that

New Jersey State Medicaid Fraud Control Unit: 2013 Onsite Review (OEI-02-13-00020)            15
                  during the next several months, in collaboration with other State agencies,
                  it will review the supervisory structure of the Unit and strategize on how
                  best to proceed in order to address the concerns raised, and will make
                  modifications as needed. The Unit stated that it would notify OIG of any
                  organizational changes. We ask that the Unit also more clearly indicate
                  whether it concurs with this recommendation.
                  The full text of the Unit’s comments is provided in Appendix F.




New Jersey State Medicaid Fraud Control Unit: 2013 Onsite Review (OEI-02-13-00020)         16
APPENDIX A
Performance Standards for Medicaid Fraud Control Units
[59 Fed. Reg. 49080, Sept. 26, 1994]29
1. 	A Unit will be in conformance with all applicable statutes, regulations, and policy
    transmittals. In meeting this standard, the Unit must meet, but is not limited to, the
    following requirements:
    a.	 The Unit professional staff must consist of permanent employees working 

        full-time on Medicaid fraud and patient abuse matters. 

    b.	 The Unit must be separate and distinct from the single State Medicaid agency.
    c.	 The Unit must have prosecutorial authority or an approved formal procedure for
        referring cases to a prosecutor.
    d.	 The Unit must submit annual reports, with appropriate certifications, on a timely
        basis.
    e.	 The Unit must submit quarterly reports on a timely basis.
    f.	 The Unit must comply with the Americans with Disabilities Act, the Equal
        Employment opportunity requirements, the Drug Free workplace requirements,
        Federal lobbying restrictions, and other such rules that are made conditions of the
        grant.
2. 	A Unit should maintain staff levels in accordance with staffing allocations
    approved in its budget. In meeting this standard, the following performance
    indicators will be considered:
    a.	 Does the Unit employ the number of staff that was included in the Unit’s budget
        as approved by [the Office of Inspector General (OIG)]?
    b.	 Does the Unit employ the number of attorneys, auditors, and investigators that
        were approved in the Unit’s budget?
    c.	 Does the Unit employ a reasonable size of professional staff in relation to the
        State’s total Medicaid program expenditures?
    d.	 Are the Unit office locations established on a rational basis and are such locations
        appropriately staffed?
3. 	A Unit should establish policies and procedures for its operations, and maintain
    appropriate systems for case management and case tracking. In meeting this
    standard, the following performance indicators will be considered:
    a.	 Does the Unit have policy and procedure manuals?

                  29
                     For the June 1, 2012 performance standards, see:
                  https://oig.hhs.gov/authorities/docs/2012/PerformanceStandardsFinal060112.pdf.

New Jersey State Medicaid Fraud Control Unit: 2013 Onsite Review (OEI-02-13-00020)                 17
    b. Is an adequate, computerized case management and tracking system in place?
4. A Unit should take steps to ensure that it maintains an adequate workload
    through referrals from the single State agency and other sources. In meeting this
    standard, the following performance indicators will be considered:
    a.	 Does the Unit work with the single State Medicaid agency to ensure adequate
        fraud referrals?
    b.	 Does the Unit work with other agencies to encourage fraud referrals?
    c.	 Does the Unit generate any of its own fraud cases?
    d.	 Does the Unit ensure that adequate referrals of patient abuse complaints are
        received from all sources?
5. 	A Unit’s case mix, when possible, should cover all significant provider types. In
    meeting this standard, the following performance indicators will be considered:
    a.	 Does the Unit seek to have a mix of cases among all types of providers in the
        State?
    b.	 Does the Unit seek to have a mix of Medicaid fraud and Medicaid patient abuse
        cases?
    c.	 Does the Unit seek to have a mix of cases that reflect the proportion of Medicaid
        expenditures for particular provider groups?
    d.	 Are there any special Unit initiatives targeting specific provider types that affect
        case mix?
    e.	 Does the Unit consider civil and administrative remedies when appropriate?
6. 	A Unit should have a continuous case flow, and cases should be completed in a
    reasonable time. In meeting this standard, the following performance indicators will
    be considered:
    a.	 Is each stage of an investigation and prosecution completed in an appropriate time
        frame?
    b.	 Are supervisors approving the opening and closing of investigations?
    c.	 Are supervisory reviews conducted periodically and noted in the case file?
7. 	A Unit should have a process for monitoring the outcome of cases. In meeting this
    standard, the following performance indicators will be considered:
    a.	 The number, age, and type of cases in inventory.
    b.	 The number of referrals to other agencies for prosecution.
    c.	 The number of arrests and indictments.
    d.	 The number of convictions.


New Jersey State Medicaid Fraud Control Unit: 2013 Onsite Review (OEI-02-13-00020)         18
    e.	 The amount of overpayments identified.
    f.	 The amount of fines and restitution ordered.
    g.	 The amount of civil recoveries.
    h.	 The numbers of administrative sanctions imposed.
8. 	A Unit will cooperate with OIG and other Federal agencies, whenever
    appropriate and consistent with its mission, in the investigation and prosecution
    of health care fraud. In meeting this standard, the following performance indicators
    will be considered:
    a.	 Does the Unit communicate effectively with OIG and other Federal agencies in
        investigating or prosecuting health care fraud in their State?
    b.	 Does the Unit provide OIG regional management, and other Federal agencies,
        where appropriate, with timely information concerning significant actions in all
        cases being pursued by the Unit?
    c.	 Does the Unit have an effective procedure for referring cases, when appropriate,
        to Federal agencies for investigation and other action?
    d.	 Does the Unit transmit to OIG, for purposes of program exclusions under
        section 1128 of the Social Security Act, reports of convictions, and copies of
        Judgment and Sentence or other acceptable documentation within 30 days or
        other reasonable time period?
9. 	A Unit should make statutory or programmatic recommendations, when
    necessary, to the State government. In meeting this standard, the following
    performance indicators will be considered:
    a.	 Does the Unit recommend amendments to the enforcement provisions of the
        State’s statutes when necessary and appropriate to do so?
    b.	 Does the Unit provide program recommendations to single State agency when
        appropriate?
    c.	 Does the Unit monitor actions taken by State legislature or State Medicaid agency
        in response to recommendations?
10. 	A Unit should periodically review its memorandum of understanding (MOU)
    with the single State Medicaid agency and seek amendments, as necessary, to
    ensure it reflects current law and practice. In meeting this standard, the following
    performance indicators will be considered:
    a.	 Is the MOU more than 5 years old?
    b.	 Does the MOU meet Federal legal requirements?
    c.	 Does the MOU address cross-training with the fraud detection staff of the State
        Medicaid agency?


New Jersey State Medicaid Fraud Control Unit: 2013 Onsite Review (OEI-02-13-00020)         19
    d.	 Does the MOU address the Unit’s responsibility to make program
        recommendations to the Medicaid agency and monitor actions taken by the
        Medicaid agency concerning those recommendations?
11. The Unit Director should exercise proper fiscal control over the Unit resources.
    In meeting this standard, the following performance indicators will be considered:
    a.	 Does the Unit Director receive on a timely basis copies of all fiscal and 

        administrative reports concerning Unit expenditures from the State parent 

        agency? 

    b.	 Does the Unit maintain an equipment inventory?
    c.	 Does the Unit apply generally accepted accounting principles in its control of Unit
        funding?
12. A Unit should maintain an annual training plan for all professional disciplines.
    In meeting this standard, the following performance indicators will be considered:
    a.	 Does the Unit have a training plan in place and funds available to fully implement
        the plan?
    b.	 Does the Unit have a minimum number of hours training requirement for each
        professional discipline, and does the staff comply with the requirement?
    c.	 Are continuing education standards met for professional staff?
    d.	 Does the training undertaken by staff aid in the mission of the Unit?




New Jersey State Medicaid Fraud Control Unit: 2013 Onsite Review (OEI-02-13-00020)       20
APPENDIX B
Referrals of Patient Abuse and Neglect, Provider Fraud, and Theft of
Patient Funds to the Medicaid Fraud Control Unit by Source, Fiscal Years
2010 through 2012
Table B-1: Total Referrals of Patient Abuse and Neglect, Provider Fraud, and Theft of
Patient Funds to the Medical Fraud Control Unit and Annual Average Referrals
                                   Fiscal
                                                                                 3-Year          Annual
Case Type                         Year (FY)            FY 2011     FY 2012
                                                                                  Total          Average
                                    2010
Patient Abuse and Neglect                   39              17             14             70           23
Provider Fraud                              25              50         135             210             70
Theft of Patient Funds                      69              33             17          119             40
  Total                                     133            100         166             399             133

Source: Office of Inspector General (OIG) analysis of New Jersey Medicaid Fraud Control Unit
(Unit) data, 2013.


Table B-2: Unit Referrals, by Referral Source
                               FY 2010                              FY 2011                            FY 2012
                                                                                 Theft
                              Abuse         Theft of                Abuse                              Abuse     Theft of            Percentage
                                                                                  of
Referral Source     Fraud      and          Patient        Fraud     and                       Fraud    and      Patient    Total       of All
                                                                                Patient
                              Neglect        Funds                  Neglect                            Neglect    Funds               Referrals
                                                                                Funds
State Survey
                         0       38               25         2        14          21            4          7        2        113           31.2
and Certification
Private Citizens         13      1                7         18        3           4             41         1        5         93           25.7
Long-Term Care
                         0       0                32         0        0           7             0          1        4         44           12.2
Ombudsman
State Medicaid
                         1       0                1         12        0           0             22         1        1         38           10.5
Agency
Unit Hotline             2       0                0          3        0           0             17         0        2         24            6.6
Other State
                         0       0                1          3        0           0             11         1        0         16            4.4
Agencies

Providers                1       0                2          2        0           0             3          0        0            8          2.2
Licensing Board          0       0                0          3        0           0              4         0        1            8          2.2
OIG                      0       0                0          1        0           0              2         1        0            4          1.1

Outside                  2       0                0          1        0           0             0          0        1            4          1.1
Prosecutors
Law                      0       0                0          0        0           0             0          1        0            1          0.3
Enforcement
Private Health
                         0       0                0          0        0           0             0          0        0            0          0.0
Insurers

Provider
                         0       0                0          0        0           0             0          0        0            0           0
Associations
Adult Protective         0       0                0          0        0           0             0          0        0            0           0
Services
Other                    3       0                0          1        0           0             4          1        0            9          2.5

  Total                  25      39               69        50        17          33           135         14      17        362           100

Source: OIG analysis of Unit data, 2013.



New Jersey State Medicaid Fraud Control Unit: 2013 Onsite Review (OEI-02-13-00020)
                                         21
 APPENDIX C
 Cases Opened and Closed by Provider Category and Case Type, Fiscal
 Years 2010 through 2012
 Table C-1: Total Annual Opened and Closed Cases, by Case Type

                            Fiscal Year
   Case Type                                 FY 2011          FY 2012   3-Year Total   Annual Average
                             (FY) 2010
   Opened                           191            157            358            706                235
     Patient Abuse and
                                       39           17             15             71                    24
     Neglect
     Provider Fraud                    83          106            326            515                172
     Theft of Patient
                                       69           34             17            120                    40
     Funds


   Closed                           142            138            366            646                215
     Patient Abuse and
                                       28           28             31             87                    29
     Neglect
     Provider Fraud                    56           58            251            365                122
     Theft of Patient
                                       58           52             84            194                    65
     Funds

 Source: Office of Inspector General (OIG) analysis of New Jersey Medicaid Fraud Control Unit (Unit)
 data, 2013.


Table C-2: Outcomes for Closed Cases, by Case Type


                             Closed by                   Closed by Civil           Closed due to
                                                                                                              Closed by Referral
                            Prosecution                      Action             Insufficient evidence



      Type of             FY     FY          FY     FY          FY       FY      FY      FY      FY           FY    FFY       FY
   Investigations        2010   2011        2012   2010        2011     2012    2010    2011    2012         2010   2011     2012
 Investigations of
 Fraud                     11      12         10         15       11       14     29      30      159           3       3        68
 Investigations of
 Patient Abuse and
 Neglect                    3       1          0          0        0        0     25      27       22           0       0          9
 Investigation of
 Theft of Patient
 Funds                      5       4          4          0        0        0     41      54       46           6       0        34
   Total
   Investigations          19      17         14         15       11       14     95     111      227           9       3        111

Source: OIG analysis of Unit data, 2013.




New Jersey State Medicaid Fraud Control Unit: 2013 Onsite Review (OEI-02-13-00020)                                          22
Table C-3: Provider Fraud Cases Opened and Closed, by Provider Type

  Provider Type                                 FY 2010                FY 2011               FY 2012
  Facilities                                Opened     Closed     Opened     Closed       Opened   Closed
  Hospitals                                       1          0           1            1        1        3
  Nursing Facilities                              0          1           0           0         7       10
  Other Long-Term Care Facilities                 0          0           0            0        1        1
  Substance Abuse Treatment Centers               0          0           0            1        4        3
  Other Facilities                                5          6         10             1        8       17
  Practitioners                             Opened     Closed     Opened     Closed       Opened   Closed
  Doctors of Medicine or Osteopathy               7          7           9            6       39       45
  Dentists                                        2          1           4            2        8       10
  Optometrists/Opticians                          0          0           0            0        2        1
  Other Practitioners                             0          0           2            0        1        4
  Counselors/Psychologists                        0          0           0           0         0        0
  Podiatrists                                     0          0           0            0        0        0
  Medical Support                           Opened     Closed     Opened     Closed       Opened   Closed
  Home Health Care Aides                          1          0           0            0        2        3
  Other Medical Support                           0          2           1            4        1         2
  Pharmaceutical Manufacturers                    0          0           0            0        0        0
  Durable Medical Equipment Suppliers             0          0           5            0        7        9
  Transportation Services                         0          0           1            2        4        4
  Pharmacies                                     11         18         15            16        6       21
  Laboratories                                    0          0           0            0        2        2
  Home Health Care Agencies                       0          0           6           2         4        7
  Nurses/Physician’s Assistants/
  Nurse Practitioners/Certified Nurse             0          0           1            1        1        2
  Aides
  Radiologists                                    0          1           1           0         1        2
  Program Related                           Opened     Closed     Opened     Closed       Opened   Closed
  Managed Care                                    0          0           0            0        0        0
  Medicaid Program Administration                 0          0           0           0         0        0
  Billing Companies                               0          2           1           1         0        0
  Other Program Related                           2          2           1            2       56       45
  Other                                     Opened     Closed     Opened     Closed       Opened   Closed
  Global                                         54         16         48            19      171       60
    Total                                        83         56        106            58      326       251

 Source: OIG analysis of Unit data, 2013.




New Jersey State Medicaid Fraud Control Unit: 2013 Onsite Review (OEI-02-13-00020)                           23
Table C-4: Cases of Patient Abuse and Neglect Opened and Closed, by Provider Type

  Provider Type            FY 2010                  FY 2011            FY 2012
                        Opened   Closed          Opened   Closed    Opened   Closed

  Nursing Facilities           6            2         2        2           4         8

  Other Long-Term
                               0             0        0        0           2          4
  Care
  Nurses/
  Physician’s
  Assistants/
  Nurse                       22            18       11       17           6         14
  Practitioners/
  Certified Nurse
  Aides
  Home Health
                               3            2         1        1           0         1
  Aides

  Other                        8             6        3        8           3          4

    Total                     39            28       17       28          15         31

 Source: OIG analysis of Unit data, 2013.




Table C-5: Cases of Theft of Patient Funds Opened and Closed, by Provider Type

  Provider Type            FY 2010                  FY 2011            FY 2012
                        Opened   Closed          Opened   Closed    Opened   Closed

  Non-Direct Care              3             1        1        1           1          5

  Nurses/
  Physician’s
  Assistants/
  Nurse                       10            6         5        5           2         9
  Practitioners/
  Certified Nurse
  Aides

  Home Health
                               0            0         0        0           0         0
  Aides

  Other                       56            51       28       46          14         70

    Total                     69            58       34       52          17         84

 Source: OIG analysis of Unit data, 2013.




New Jersey State Medicaid Fraud Control Unit: 2013 Onsite Review (OEI-02-13-00020)        24
APPENDIX D
Organizational Chart




                                           Attorney General




       Deputy                                                                            Counsel
  Insurance Fraud                           Insurance Fraud                                 and
     Prosecutor                                Prosecutor                              Head of False
                                                                                        Claims Unit




 Case Screening,
  Litigation, and                                                                       False Claims
    Analytical                                                                              Unit *
 Support Section




                                                 Chief of
                                                Detectives
             Private                               and                            Medicaid Fraud
           Insurance                          Deputy Chief of                      Control Unit
                                               Detectives **




 Source: New Jersey Medicaid Fraud Control Unit, 2012.

 * Staff at the False Claims Unit are MFCU staff.

 ** The Chief of Detectives and Deputy Chief of Detectives are not MFCU staff; however, they oversee the
 MFCU detectives and Private Insurance detectives.




New Jersey State Medicaid Fraud Control Unit: 2013 Onsite Review (OEI-02-13-00020)                         25
APPENDIX E
Confidence Intervals for Estimates

Table D-1: Confidence Intervals for Key Data from Case File Review
Estimate Description              Sample Size      Point Estimate             95-Percent
                                                                      Confidence Interval
Case Files With Opening                   100               91.0%             84.0–95.1%
Documents
Case Files With Closing                    68               97.1%             89.5–99.2%
Documents

Case Files With No
Documentation Indicating at
Least One Supervisory
Review (Does Not Include                   50               50.0%             36.9–63.1%
Global Cases or Cases
Opened and Closed on the
Same Day)




New Jersey State Medicaid Fraud Control Unit: 2013 Onsite Review (OEI-02-13-00020)          26
APPENDIX F
Unit Comments




                                                                State ofNew JorSf}J'
                                                      OFFICE OF TilE ATl1.lRI'\IOY OFNI'RAL
        Ctlt<ls cmusnt:                            DEPARTMENT" OF LA\V AND PUBLIC' SA!'E-TY                                                             .IOHN l. HOFI'M.'LN
             GmYJrnar                                                         1'0 llOX OR(!                                                           A('rt~J? Atlonwy   t rr!.nerd
                                                                     TRENTOK N! 08625-002!0
        KIM G!IAilAONO                                                                                                                                .IENNIF"R E. FRADEL
         U. Guwmor                                                                                                                                        4rlmitri..v(rolor




                                                                          AugLJst 19, 2013

        Mr. Stuart Wright
        Deputy Inspector Ge11eral For Evaluations and Inspections
        Oftlce of the Inspector General
        Room 5660, Cohen Building
        330 Independence Avenue, SW
        Washington, DC 20201

        Rc: .1\cw Jersey :\1edicaid Fraud Cnit 2<113 On site Review, OFI-0?.-13-00020

        Dear 1-.fr. \Vri ght,

        Thank yon for the opportunity to respond to the Office of the Inspector General (OIG) 2013 Onsite
        Review, OI:I-02-13-00020. The New Jersey Office of the Attorney G<::neral recognizes and greatly
        rcsputs the role of the OIG, and has taken thi:> review as an opportunity to improve our Unit as a whole,
        with emphasis on the areas recommended in the report. We appreciate the diligence and insight the OIG
        staJJ has ·~how11 during this review process, and we look forv.'ard to continuing the professional and
        constrL!ctive relationship we have developed.

        The Office of the Inspector General has requested our comments on each of the recommendations in the
        report. It has been asked that our comments include whether we concur with the recommendation and
        statements in the report, along with the w;tions and any timelines associated with actions taken as a resuli
        ofthe recommendations.

        In the enclosed respollile, we have included the summ.aT)' recommendation from the Onsite Review; our
        plan to comply with the recommendation; and our plan t<' implement the changes for each
        recommendation noted. Please do not hesitate to contact me if you have any questions or need additional
        infol1lliltion.

                                                                                                      Sincerely,

                                                                                                            /S/
                                                                                                      l6hn J. 1-fofiman
                                                                                                      A¢tlng Attorney General


                                HlJGHES JUSTICE C01fPLEX · TBI,RPIIONR: (609)292·9C.<l0 FAX: (009l292-4299
                                  N"e;.J .le.rt:r)' ill mr Equal Oppitrtunit\' Emplc1)<t'r fNntR<l on R.erJ._;.'(;fl!d Paper a.rtd &t.-,..'CJahi<'"




New Jersey State Medicaid Fraud Control Unit: 2013 Onsite Review (OEI-02-13-00020)                                                                                                    27
New Jersey State Medicaid Fraud Control Unit: 2013 Onsite Review (OEI-02-13-00020)   28
New Jersey State Medicaid Fraud Control Unit: 2013 Onsite Review (OEI-02-13-00020)   29
New Jersey State Medicaid Fraud Control Unit: 2013 Onsite Review (OEI-02-13-00020)   30
New Jersey State Medicaid Fraud Control Unit: 2013 Onsite Review (OEI-02-13-00020)   31
New Jersey State Medicaid Fraud Control Unit: 2013 Onsite Review (OEI-02-13-00020)   32
New Jersey State Medicaid Fraud Control Unit: 2013 Onsite Review (OEI-02-13-00020)   33
                  ACKNOWLEDGMENTS
                  This report was prepared under the direction of Jodi Nudelman, Regional 

                  Inspector General for Evaluation and Inspections in the New York regional 

                  office, and Nancy Harrison and Meridith Seife, Deputy Regional 

                  Inspectors General. 

                  Judy Kellis and Vincent Greiber served as the team leaders for this study. 

                  Other Office of Evaluation and Inspections staff from the New York 

                  regional office who conducted the study include Lucia Fort and 

                  Jennifer Karr. Central office staff who provided support include 

                  Thomas Brannon, Kevin Farber, Christine Moritz, and Sherri Weinstein. 

                  Office of Audit Services staff who provided support include Julio Agosto, 

                  Paul Lee, and Dain Wisdom. Office of Investigations staff who provided 

                  support include Kerri Navarro. 





New Jersey State Medicaid Fraud Control Unit: 2013 Onsite Review (OEI-02-13-00020)          34
                Office of Inspector General
                                 http://oig.hhs.gov

The mission of the Office of Inspector General (OIG), as mandated by Public Law 95-452, as
amended, is to protect the integrity of the Department of Health and Human Services
(HHS) programs, as well as the health and welfare of beneficiaries served by those
programs. This statutory mission is carried out through a nationwide network of audits,
investigations, and inspections conducted by the following operating components:

Office of Audit Services
The Office of Audit Services (OAS) provides auditing services for HHS, either by conducting
audits with its own audit resources or by overseeing audit work done by others. Audits
examine the performance of HHS programs and/or its grantees and contractors in carrying
out their respective responsibilities and are intended to provide independent assessments of
HHS programs and operations. These assessments help reduce waste, abuse, and
mismanagement and promote economy and efficiency throughout HHS.

Office of Evaluation and Inspections
The Office of Evaluation and Inspections (OEI) conducts national evaluations to provide
HHS, Congress, and the public with timely, useful, and reliable information on significant
issues. These evaluations focus on preventing fraud, waste, or abuse and promoting
economy, efficiency, and effectiveness of departmental programs. To promote impact, OEI
reports also present practical recommendations for improving program operations.

Office of Investigations
The Office of Investigations (OI) conducts criminal, civil, and administrative investigations
of fraud and misconduct related to HHS programs, operations, and beneficiaries. With
investigators working in all 50 States and the District of Columbia, OI utilizes its resources
by actively coordinating with the Department of Justice and other Federal, State, and local
law enforcement authorities. The investigative efforts of OI often lead to criminal
convictions, administrative sanctions, and/or civil monetary penalties.

Office of Counsel to the Inspector General
The Office of Counsel to the Inspector General (OCIG) provides general legal services to
OIG, rendering advice and opinions on HHS programs and operations and providing all
legal support for OIG’s internal operations. OCIG represents OIG in all civil and
administrative fraud and abuse cases involving HHS programs, including False Claims Act,
program exclusion, and civil monetary penalty cases. In connection with these cases, OCIG
also negotiates and monitors corporate integrity agreements. OCIG renders advisory
opinions, issues compliance program guidance, publishes fraud alerts, and provides other
guidance to the health care industry concerning the anti-kickback statute and other OIG
enforcement authorities.
